No. 21-532
IN THE

SUPREME COURT OF THE UNITED STATES
JACOB MATTHEW JOHNSON,
Petitioners
v.
TEXAS,

Respondent

PROOF OF SERVICE
Pursuant to Rule 29.5 of the Rules of this Court, I certify that all
parties required to be served have been served. On October 15, 2021, I
caused copies of Petitioner’s blanket consent in the above-captioned
matter to be served by first-class mail, postage prepaid, and by electronic
mail (as designated) on those on the attached list.
/s/ William Pieratt Demond
William Pieratt Demond
Counsel of Record for Petitioner,
Jacob Matthew Johnson

SERVICE LIST
John R. Messinger
Stacey M. Soule
P.O. Box 13046
Austin, Texas 78711
information@spa.texas.gov
512.463.1660
Counsel for Respondent

